APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA SIGNATURE REWARDS/VISA
PLATINUM SECURED
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

0.00%

Introductory APR for a

8.15

period of 12 months

.

to 13.15%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards

0.00%

Introductory APR for a

period of 12 months

.

11.15% to 13.15%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Secured

15.15%

This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

Visa Platinum
0.00% Introductory APR for a

period of 12 months

.

After that, your APR will be 8.15% to 13.15%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards
0.00% Introductory APR for a

period of 12 months

.

After that, your APR will be 11.15% to 13.15%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Secured
15.15%
This APR will vary with the market based on the Prime Rate.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03204256-MXC10-C-1-082418 (MXC101-E)

APR for Cash Advances

Visa Platinum
8.15% to 13.15%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Signature Rewards
11.15% to 13.15%, when you open your account, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
Visa Platinum Secured
15.15%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee - Visa Platinum,
Visa Signature Rewards
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

None
$5.00 or 1.50% of the amount of each balance transfer, whichever is greater
$10.00 or 2.00% of the amount of each cash advance, whichever is greater
1.00% of each transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Platinum, Visa Signature Rewards:
The Introductory APR for purchases and balance transfers will apply to transactions posted to your account during the first
90 days following account opening
. Any existing balances on Allegacy Federal Credit Union loan or credit card
accounts are not eligible for the Introductory APR for balance transfers.
Effective Date:
The information about the costs of the card described in this application is accurate as of: March 19, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum, Visa Signature Rewards and Visa Platinum Secured are secured
credit cards. Credit extended under this credit card account is secured by various personal property and money
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or
joint account with the Credit Union excluding shares in an Individual Retirement Account or in any other account
that would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have
with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that
during any periods when you are a covered borrower under the Military Lending Act your credit card will be
secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any
individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you
establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03204256-MXC10-C-1-082418 (MXC101-E)

Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Balance Transfer Fee (Finance Charge) - Visa Platinum, Visa Signature Rewards:
$5.00 or 1.50% of the amount of each balance transfer, whichever is greater. This fee is in effect for transactions posted
during the promotional period. There will be no balance transfer fee on transactions posted after the promotional period.
Cash Advance Fee (Finance Charge):
$10.00 or 2.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Pay-by-Phone Fee:
$12.00.
Rush Fee:
$35.00.
Statement Copy Fee:
$2.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03204256-MXC10-C-1-082418 (MXC101-E)

